Audit Report




OIG-12-063
RECOVERY ACT: Audit of Grand Ridge Energy II LLC Payment
Under1603 Program


August 2, 2012




Office of
Inspector General
Department of the Treasury
 
Contents


Audit Report ................................................................................................ 1

    Results in Brief ........................................................................................... 1

    Background ............................................................................................... 2

    Objectives, Scope, and Methodology ............................................................. 4

    Audit Results ............................................................................................. 5


Appendices

    Appendix     1:      Grand Ridge II Response ........................................................ 7
    Appendix     2:      Management Response .......................................................... 8
    Appendix     3:      Major Contributors to This Report............................................ 9
    Appendix     4:      Report Distribution ............................................................... 10


Abbreviations

    MW                       megawatt
    NREL                     National Renewable Energy Laboratory
    OFAS                     Office of the Fiscal Assistant Secretary
    OIG                      Office of Inspector General
    Treas. Reg.              Treasury Regulation




                         Audit of Grand Ridge Energy II LLC Payment Under 1603 Program                      Page i
                         (OIG-12-063)
THIS PAGE INTENTIONALLY LEFT BLANK
                                                                                      Audit
OIG
The Department of the Treasury
                                                                                      Report
Office of Inspector General




                      August 2, 2012

                      Richard L. Gregg
                      Fiscal Assistant Secretary

                      As part of our ongoing oversight of the Department of the
                      Treasury’s (Treasury) 1603 Program – Payments for Specified
                      Energy Property in Lieu of Tax Credits (1603 Program)1 authorized
                      by the American Recovery and Reinvestment Act of 2009
                      (Recovery Act),2 we are conducting audits of selected award
                      recipients. In this regard, we have audited the award made to
                      Grand Ridge Energy II, LLC (Grand Ridge II) for a wind energy
                      property in LaSalle County, Illinois. Grand Ridge II submitted its
                      claim for payment in lieu of tax credit in the amount of
                      $32,571,599 and was awarded $32,300,165 by Treasury on
                      February 19, 2010. Our audit objectives were to assess the
                      eligibility and accuracy of that award by determining whether
                      (1) the property existed, (2) the property was placed into service
                      during the eligible timeframe, and (3) the award amount was
                      appropriate.


Results in Brief
                      We verified that the subject property described by Grand Ridge II in
                      its 1603 Program application does exist and was placed in service
                      on November 25, 2009, which was within the eligible timeframe.
                      We also concluded that the award amount was appropriate.
                      Overall, Grand Ridge II complied with the eligibility requirements set
                      forth in Section 1603 of the Recovery Act and Treasury’s 1603

1
 Treasury’s Office of the Fiscal Assistant Secretary administers this program.
2
 Pub. L. No. 111-5, 123 Stat. 364-366 (Feb. 17, 2009). Under section 1603 of the Recovery Act,
Treasury makes grants (payments) to eligible persons who place in service specified energy property
and apply for such payments. The payments reimburse eligible applicants for a portion of the expense of
such property and are made in lieu of tax credits that could potentially be claimed by the awardees.

                      Audit of Grand Ridge Energy II LLC Payment Under 1603 Program             Page 1
                      (OIG-12-063)
                       Program guidance.3 Subsequent to our site visit, we reviewed
                       Grand Ridge II’s annual performance reports submitted to Treasury
                       for 2010 and 2011, certifying that the subject property was not
                       disposed of and that it continued to qualify as a specified energy
                       property. It should be noted that in accordance with the terms and
                       conditions of the award, Grand Ridge II must continue to certify
                       that (1) the property has not been sold, transferred, or disposed of
                       to a disqualified person and (2) the property continues to qualify as
                       a specified energy property.

                       As part of our reporting process over 1603 Program awardees, we
                       provided Grand Ridge II an opportunity to comment on a draft of
                       this report. Grand Ridge II agreed with the results of our audit; its
                       response can be found in appendix 1. After incorporating Grand
                       Ridge II’s response into this report, we provided it to Treasury
                       management for comment. Treasury management concurred with
                       our audit results; its response is provided in appendix 2.


Background
                       Eligibility Under the 1603 Program

                       Applicants are eligible for a 1603 Program award if a specified
                       energy property is placed in service during calendar years 2009,
                       2010, or 20114 and the amount awarded is in accordance with
                       provisions of the Internal Revenue Code of 1986 for determining
                       the appropriate cost basis. Under the 1603 Program, applicants
                       submit an application to Treasury that reports the total eligible cost
                       basis of a specified energy property placed in service. If approved,
                       award amounts are based on a percent of the eligible cost basis.
                       For the type of property claimed by Grand Ridge II, the percentage

3
  Office of the Fiscal Assistant Secretary, “Payments for Specified Energy Property in Lieu of Tax
Credits under the American Recovery and Reinvestment Act of 2009 Program Guidance,” (July 2009/
Revised March 2010/ Revised April 2011)
(http://www.treasury.gov/initiatives/recovery/Pages/1603.aspx)
4
  Section 707 of the Tax Relief, Unemployment Insurance Reauthorization and Job Creation Act of
2010 (Pub. L. 111-312, 124 Stat. 3312 (Dec 17, 2010)), extended Treasury’s 1603 Program for
1 year. To be eligible, a property must be placed in service in 2009, 2010, or 2011 or placed in service
after 2011 but only if construction of the property began during 2009, 2010, or 2011 and the credit
termination date of the property has not expired. The application deadline was also extended to
September 30, 2012.

                       Audit of Grand Ridge Energy II LLC Payment Under 1603 Program              Page 2
                       (OIG-12-063)
                        of the cost basis eligible for award is 30 percent. According to
                        Treasury’s 1603 Program guidance, the cost basis of the subject
                        property is ascertained in accordance with the general rules for
                        determining the cost basis of property for federal income tax
                        purposes.

                        Specifically, for this type of property, applicants follow the
                        capitalization procedures found in Treas. Reg. §1.263A-1,
                        “Uniform Capitalization of Costs.”5

                        The terms and conditions of award require applicants to certify
                        annually for a period of 5 years following the property’s in-service
                        date that the claimed property (1) has not been sold, transferred, or
                        disposed of to a disqualified person and (2) continues to qualify as
                        a specified energy property. Otherwise, the 1603 Program payment
                        will be subject to full or prorated recapture.

                        Grand Ridge II

                        Invenergy Wind, LLC (Invenergy) developed the Grand Ridge
                        Energy II wind farm property located in LaSalle County, Illinois,
                        approximately 80 miles southwest of Chicago, Illinois. The subject
                                                                  property is a 51
                                                                  megawatt (MW) wind
                                                                  farm which utilizes 34
                                                                  General Electric wind
                                                                  turbines capable of
                                                                  generating about 141
                                                                  gigawatt hours of
                                                                  electrical output
                                                                  annually. Grand Ridge II
                                                                  sells its output to
                          OIG Photograph (April 5, 2010)          Appalachian Power
                        Company under a 20 year Renewable Energy Purchase Agreement.

                        Invenergy and its subsidiary companies have developed and placed
                        into service 44 wind generation properties worldwide representing

5
 Treas. Reg. § 1.263A-1(a)(3) (ii), Property produced: “Taxpayers that produce real property and
tangible personal property (producers) must capitalize all the direct costs of producing the property and
the property's properly allocable share of indirect costs (described in paragraphs (e)(2)(i) and (3) of this
section), regardless of whether the property is sold or used in the taxpayer's trade or business.

                        Audit of Grand Ridge Energy II LLC Payment Under 1603 Program                  Page 3
                        (OIG-12-063)
                      an aggregate generation capacity of over 3,752 MW. Invenergy is
                      currently the fifth largest wind generation company in the U.S. To
                      date, Invenergy and its affiliates have received $199 million in
                      1603 Program awards for five specified energy properties — Grand
                      Ridge Energy II, Grand Ridge Energy III, Grand Ridge Energy IV,
                      Beech Ridge Energy, and Vantage Wind Energy.


Objectives, Scope, and Methodology
                      To assess the eligibility and accuracy of the award made to Grand
                      Ridge II under the 1603 Program, we determined whether (1) the
                      property existed, (2) the property was placed into service during
                      the eligible timeframe, and (3) the award amount was appropriate.

                      In performing our work, we visited Invenergy headquarters in
                      Chicago, Illinois; interviewed key personnel of Invenergy; reviewed
                      the application and related documents reviewed by the Department
                      of Energy’s National Renewable Energy Laboratory (NREL);6
                      reviewed documentation used to support the property’s existence,
                      its placed in service date, and the costs claimed by Grand Ridge II;
                      and reviewed the annual performance reports submitted by the
                      awardee for 2010 and 2011. We performed our work between
                      April 2010 and May 2012.

                      We conducted this performance audit in accordance with generally
                      accepted government auditing standards. Those standards require
                      that we plan and perform an audit to obtain sufficient, appropriate
                      evidence to provide a reasonable basis for our findings and
                      conclusions based on our audit objectives. We believe that the
                      evidence obtained provides a reasonable basis for our findings and
                      conclusions based on our audit objectives.




6
 NREL is a national laboratory of the Department of Energy. Under an interagency agreement between
Treasury and the Department of Energy, NREL performs the technical review of 1603 Program
applications and advises Treasury on award decisions.

                      Audit of Grand Ridge Energy II LLC Payment Under 1603 Program          Page 4
                      (OIG-12-063)
Audit Results
                We verified that the subject property described by Grand Ridge II in
                its 1603 Program application exists, was properly placed in-service
                within the eligible timeframe, and the award amount was
                appropriate.

                   Property Existence

                   We confirmed the subject property’s existence through our site
                   visit to Grand Ridge II wind farm located in LaSalle County,
                   Illinois. As part of our site visit, we reviewed Grand Ridge II’s
                   wind turbine monitoring system and noted that there was active
                   monitoring of its 34 wind turbines. We also concluded that the
                   subject property included the wind turbines that had the 1.5
                   MW capacity each as described in the subject property’s
                   application.

                   Placed In-Service

                   We determined that the subject property was placed in service
                   during the eligible time frame through review of documentation
                   supporting Grand Ridge II’s in-service date of November 25,
                   2009. Specifically, we reviewed (1) documentation detailing the
                   completion and commission dates for each turbine,
                   (2) correspondence from Grand Ridge II’s transmission provider
                   supporting the date Grand Ridge II commenced operation, and
                   (3) the inter-connection agreement between Grand Ridge II and
                   respective third parties for interconnection service.

                   Appropriate Award Amount

                   We concluded that the amount of $32,300,165 awarded to
                   Grand Ridge II was appropriate through our review of
                   documentation supporting the subject property’s cost basis.
                   Prior to award, NREL technical reviewers identified $904,778 of
                   ineligible costs and reduced the submitted cost basis of
                   $108,571,996 to $107,667,218 resulting in an adjusted award
                   amount of $32,300,165 (30 percent of adjusted cost basis).
                   During our review, we obtained a schedule of all costs in the
                   subject property’s cost basis and tested supporting

                Audit of Grand Ridge Energy II LLC Payment Under 1603 Program   Page 5
                (OIG-12-063)
      documentation for cost transactions totaling $67 million and
      verified that the selected costs were allowable and eligible.
      Accordingly, we believe the amount awarded to Grand Ridge II
      was appropriate.

Since our site visit to Grand Ridge II, we reviewed its “Annual
Performance Report and Certification” for 2010 and 2011 to
ensure compliance with Treasury’s reporting requirements
contained in the applicant’s terms and conditions of award. As
required for continued eligibility, Grand Ridge II certified that the
property has not been sold, transferred, or disposed of to a
disqualified person and that the property continues to qualify as a
specified energy property. The next annual report is due December
15, 2012.




                                 ******

We appreciate the courtesies and cooperation provided to our staff
during this audit. If you wish to discuss this report, you may
contact me at (202) 927-5400 or Donna Joseph, Director, at
(202) 927-5784. See appendix 3 for major contributors to this
report.


/s/

Marla A. Freedman
Assistant Inspector General for Audit




Audit of Grand Ridge Energy II LLC Payment Under 1603 Program   Page 6
(OIG-12-063)
Appendix 1
Grand Ridge II Response




Audit of Grand Ridge Energy II LLC Payment Under 1603 Program   Page 7
(OIG-12-063)
Appendix 2
Management Response




Audit of Grand Ridge Energy II LLC Payment Under 1603 Program   Page 8
(OIG-12-063)
Appendix 3
Major Contributors To This Report




Donna Joseph, Director
Cynthia Milanez, Audit Manager
Erica Wardley, Audit Manager
James Hodge, Auditor-in-Charge
Cheryl Sroufe, Auditor
John Gauthier, Referencer




Audit of Grand Ridge Energy II LLC Payment Under 1603 Program   Page 9
(OIG-12-063)
Appendix 4
Report Distribution




Department of the Treasury

   Assistant Secretary for Management of the Treasury,
      Chief Financial Officer, and Chief Performance Officer
   Fiscal Assistant Secretary
   Deputy Chief Financial Officer
   Director, Treasury-wide Accounting and Policy
   Director, Risk and Control Group
   Deputy Director, Office of Performance Budgeting
   Program Manager, Office of Fiscal Assistant Secretary

Office of Management and Budget

   OIG Budget Examiner

Invenergy LLC

   Vice President




Audit of Grand Ridge Energy II LLC Payment Under 1603 Program   Page 10
(OIG-12-063)
THIS PAGE INTENTIONALLY LEFT BLANK
